UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
ATTACHMENT L
No: 19-3723
La Veme Koenig
Plaintiff - Appellant
v.
Andrew Wheeler, Administrator of United States Environmental Protection Agency: United
States Environmental Protection Agency; State of North Dakota; Traill County Water Resource
District, Jason Lovas: Andy Neset; Jason Siegert; Gary Thompson; Joel Halvorson; Nettie
Johnson, Traill County Water Resource District; Steve Volla. Blanchard Township Board of
Supei visors; Jeffrey Henn, Blanchard Township Board of Supervisors; Steve Hilstad, Blanchard
Township Board of Supervisors; Traill County Sheriff's Department; Steve Hunt, Traill County
Sheriff, Deputy Kelly, Traill County Sheriffs Department; Moore Engineering: Ohnstad
Twichell Law Firm; Sean M. Fredricks; Curtis B. Reimer; Stacey Reimer
Defendants - Appellees
Appeal from U.S. District Court for the District of North Dakota - Fargo
(3:18-cv-OO 102-PDW)
.JUDGMENT
Before GRUENDER, BENTON, and GRASZ, Circuit Judges.

This court has reviewed die original file of the United States District Uourt. It is ordered
by the court that the judgment of the district court is summarily affirmed. See Eighth Circuit
Rule 47A(a).
Appellant’s motion for appointment of counsel is denied as moot.
March 30, 2020
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-3723
La Verne Koenig
Appellant
v.
Andrew Wheeler, Administrator of United States Environmental Protection Agency, et al.
Appellees

Appeal from U.S. District Court for the District of North Dakota - Fargo
(3:18-cv-OO 102-PD W)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
Judge Erickson did not participate in the consideration or decision of this matter.
July 16, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Case 3:18-cv-00102-PDW-ARS Document 19 Filed 11/21/19 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA
La Verne Koenig,
Plaintiff,
vs.
E. Scott Pruitt, Administrator of United
States Environmental Protection Agency;
United States Environmental Protection
Agency; State of North Dakota; Traill
County Water Resource District; Jason
Lovas; Andy Neset; Jason Siegert; Gary
Thompson; Joel Halvorson; Nettie
Johnson, Traill County Water Resource
District; Steve Volla, Blanchard Township
Board of Supervisors; Jeffrey Henn,
Blanchard Township Board of Supervisors;
Steve Hilstad, Blachard Township Board of
Supervisors; Traill County Sheriffs
Department; Steve Hunt, Traill County
Sheriff; Deputy Kelly, Traill County
Sheriffs Department; Moore Engineering;
Ohnstad Twichell Law Firm; Sean M.
Fredricks; Curtis B. Reimer; and Stacey
Reimer,
Defendants.

)
)
)
)
)
)
)

ORDER OF DISMISSAL

Case No.: 3:18-cv-102

)
)
)
)
)
)
)

)
)

)
)
)
)
)

)
)
)
)
)
)

Plaintiff La Verne Koenig, proceeding pro se, filed a complaint on May 18, 2018 in the
United States District Court for the District of Columbia. Doc. No. 1. The case was transferred
to the United States District Court for the District of North Dakota the same day. Doc. No. 3. The
summons to be served on the Defendants were distributed to the Plaintiff on May 31, 2018. Doc.

1

Case 3:18-cv-00102-PDW-ARS Document 19 Filed 11/21/19 Page 2 of 2

Nos. 10 and 11. To date, no proof of service has been filed by the Plaintiff, and none of the
Defendants have appeared.
The Court provided the Plaintiff two opportunities to remedy the procedural service defect
(see Doc. Nos. 13 and 15), noting the Plaintiff needed to file the necessary proofs of service or
waivers on or before November 15,2019 or otherwise show cause to avoid dismissal. The Plaintiff
has not complied with those Orders, and no proofs of service or waivers satisfying Federal Rule
of Civil Procedure 4(m) and (4)(1)(1) have been filed.
As previously noted, it is the Plaintiffs responsibility to serve all defendants “within 90
days after the complaint is filed[,]” and “[ujnless service is waived, proof of service must be made
to the court.” Fed. R. Civ. P. 4(m) and 4(1)(1). If a defendant is not timely served, the court “must
dismiss the action without prejudice against that defendant or order that service be made within a
specified time.” Id The Plaintiff has not complied with the Court’s Orders and has not shown
that the summons and complaint have been properly served on the Defendants as required by the
Federal Rules of Civil Procedure.
It is therefore ORDERED that the Plaintiffs complaint be dismissed without prejudice for
failure to effectuate service.
IT IS SO ORDERED.
Dated this 21st day of November, 2019.
/s/ Peter D. Welte
Peter D. Welte, Chief Judge
United States District Court

2

Additional material
from this filing is
available in the
Clerk's Office.

